No. _________________
______________________________________
In the

Supreme Court of the United States
January Term, 2021

______________________________________

JOSE DIAZ, AKA CANO,
Petitioner.
vs.
UNITED STATES OF AMERICA,
Respondent.
_____________________________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
________________________________
PETITION FOR A WRIT OF CERTIORARI
________________________________
Jeremiah Donovan
123 Elm Street, Unit 400
Post Office Box 554
Old Saybrook, CT 06475
(860) 388-3750
FAX 388-3181
jeremiah_donovan@sbcglobal.net
Attorney for the Petitioner

Question Presented
Should this Court, in order to safeguard a defendant’s rights to due process
and a fair and impartial jury, clarify the extent to which a trial court must conduct
an inquiry when it learns during the course of deliberations that jurors have
disregarded the trial court’s instructions and discussed the matter between
themselves outside the presence of the other jurors?
List of Parties
In the appeal to the Second Circuit, there was one co-defendant : Robert
Acosta, AKA Roberto Mojico, AKA Robert Mojicaisaacs, who was also a codefendant in the district court.

ii

Table of Contents

Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
List of Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
Petition for Writ of Certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Reasons for Granting the Petition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Certiorari should be granted to set the standards as to the scope of the
inquiry that must be conducted by a trial court that has been alerted as
to potential juror misconduct prior to the return of a verdict, in order
to establish the proper balance between a defendant’s constitutional
rights, the ascertainment of truth, and the protection of the integrity
of the jury process, and in order to encourage uniformity in the
practices of the district courts in various circuits.. . . . . . . . . . . . . . . . 8
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Index to Appendices
Appendix A

Decision of the United States Court of Appeals for the
Second Circuit (slip opinion)

Appendix B

Decision of the District Court for the Southern District of
New York (transcript)
iii

Table of Authorities
CASES
Lee v. United States, 454 A.2d 770 (D.C. App.1982) . . . . . . . . . . . . . . . . . . . . . . 13
Mattox v. United States, 146 U.S. 140, 13 S.Ct. 50, 36 L.Ed. 917 (1892) . . . . 9, 14
McDonald v. Pless, 238 U.S. 264, 35 S.Ct. 783, 59 L.Ed. 1300 (1915) . . . . . . . . 14
McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984). . . . . . . 8
McIlwain v. United States, 464 U.S. 972 (1983). . . . . . . . . . . . . . . . . . . . . . . . . . 13
Parker v. Gladden, 385 U.S. 363, 87 S.Ct. 468, 17 L.Ed.2d 420 (1966). . . . . . . . . 9
Pena-Rodriguez v. Colorado, 580 U.S. __, 137 S. Ct. 855, 197 L.Ed.2d 107 (2017)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 14, 15
Remmer v. United States, 347 U.S. 227, 74 S.Ct. 450, 98 L.Ed. 654 (1954) . . . . . 9
Smith v. Philips, 455 U.S. 209 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Tanner v. United States, 483 U.S. 107 (1987) . . . . . . . . . . . . . . . . . . . . 9, 13, 14, 16
Tharpe v. Sellers, ___ U.S. ___, 138 S.Ct. 545 (2018) (per curiam). . . . . . . . . . . . 9
United States v. Spruill, 808 F.3d 585 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 11
United States v. Abrams, 137 F.3d 704 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . 7, 8
United States v. Cox, 324 F.3d 77 (2d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Fazio, 770 F.3d 160 (2d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Haynes, 729 F.3d 178 (2d Cir. 2013) . . . . . . . . . . . . . . . . 6, 15, 16
United States v. Peterson, 385 F.3d 127 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 7
United States v. Provenzano, 620 F.2d 985 (3d Cir. 1980) . . . . . . . . . . . . . . . . . . 13
United States v. Reid, 53 U.S. 361, 12 How. 361, 13 L.Ed. 1023. . . . . . . . . . . . . 14
iv

United States v. Resko, 3 F.3d 684 (3d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Thai, 29 F.3d 785 (2d Cir. 1994). . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Thomas, 116 F.3d 606 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . 6, 12
United States v. Vitale, 459 F.3d 190 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 6, 7
Warger v. Shauers, U.S. ___, 135 S.Ct. 521, 190 L.Ed.2d 422 (2014) . . . . . . 9, 14

CONSTITUTIONAL PROVISIONS
U.S. Constitution, Amendment V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Constitution, Amendment VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8, 13, 14

STATUTES
18 U.S.C. § 2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 924(j). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 1958 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 3231 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C.§ 3557 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 3742 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
21 U.S.C. § 848(e)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULES
Fed. R. App. Procedure, Rule 4(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
v

________________________________
No. __________________
________________________________
In the

Supreme Court of the United States
January Term, 2021

________________________________
JOSE DIAZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
_________________________________
Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
________________________________
Petitioner Jose Diaz respectfully prays that a writ of certiorari issue to
review the judgment and opinion of the United States Court of Appeals for the
Second Circuit dated November 2, 2020.
Opinions Below
The decision of the Court of Appeals is an unpublished summary affirmance
and is set forth at A 1, infra.1 The decision of the district court was a trial ruling
the transcript of which is set forth at A 16, infra.

In this petition, "A" followed by a page number refers to the Appendix to
this Petition for Certiorari, which follows the petition.
1

1

Jurisdiction
The judgment of the Court of Appeals entered on November 2, 2020. This
Court's jurisdiction is invoked under 28 U.S.C. § 1254(1).
The basis for subject matter jurisdiction in district court was 18 U.S.C. §
3231 (jurisdiction over offenses against the United States). The basis for the
jurisdiction of the court of appeals was 28 U.S.C. § 1291 (appeals from final
judgments of district courts), Rule 4(b), Fed. R. App. Proc. (appeals from criminal
convictions), 18 U.S.C.§ 3557 and 18 U.S.C. § 3742 (appeals from sentences)
.
Constitutional and Statutory Provisions Involved
U.S. Constitution, Amendment V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in cases
arising in the land or naval forces, or in the militia, when in actual service in time
of war or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without just
compensation.

2

U.S. Constitution, Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defense.
Statement of the Case
Jose Diaz and his co-defendant, Robert Acosta, appealed from judgments of
conviction, entered July 12, 2019, following a three-week jury trial in the Southern
District of New York. Acosta and Diaz were convicted for their roles in the
murders of Alex Ventura and Aneudis Almonte on December 22, 1997, in the
Bronx, New York. Specifically, both Acosta and Diaz were convicted of: (1) one
count of conspiring to commit a murder-for-hire, in violation of 18 U.S.C. § 1958;
and (2) two counts of the commission of a murder-for-hire, which resulted in the
deaths of Ventura and Almonte, respectively, in violation of 18 U.S.C. §§ 1958
and 2. Diaz was separately convicted of using a firearm during and in relation to
+the Ventura murder, in violation of 18 U.S.C. §§ 924(j) and 2.2 The district

Acosta was separately convicted of two counts of murder during and in
relation to a conspiracy to distribute five kilograms or more of cocaine, in
violation of 21 U.S.C. § 848(e)(1)(A) and 18 U.S.C. § 2, in connection with the
Ventura and Almonte murders, respectively.
2

3

court sentenced both defendants principally to life imprisonment. A 2.
Statement of Facts
In the Court of Appeals, Diaz and Acosta argued that the district court erred
in its handling of alleged juror misconduct.
On the first day of deliberations, two jurors had a conversation regarding the
case outside the presence of other jurors. A 8.
The circumstances surrounding this particular issue can be summarized as
follows: On March 27, 2019, the district court charged the jury, and the jurors
deliberated for the remainder of the afternoon. Before the jurors left the courtroom
to deliberate, the district court instructed the jury that they must only deliberate
with all 12 jurors present. A 8.
The next morning, the district court informed the parties that an attorney in
the hallway had observed one juror speaking to another juror and believed that the
juror was “discussing the case.” The attorney overheard one juror ask another
juror, “So what do you think?” The listening juror looked at the other juror
“strangely,” and the other juror continued by stating, “Well, I’m glad he broke it
down that way. I don’t want to send a person to prison if he didn’t do it so I am
glad they are handling it that way.” The two jurors continued walking down the
hallway and the attorney did not hear any more of their conversation. A 8.
After receiving this information and consulting with counsel about whether
to question the jurors about their conversation and ability to be impartial, the
district court declined Diaz’s request that the juror who made the statement be
4

dismissed, as well as Acosta’s request that both jurors be excused. Instead of
questioning the individual jurors or dismissing them, the district court gave an
instruction to the entire jury which: (1) reminded the jury of the instruction
regarding discussing the case only when all 12 jurors are present; (2) alerted the
jury that it had come to the district court’s attention that two jurors were overheard
discussing the case as they exited the courthouse; (3) emphasized that such a
discussion was “improper conduct” that is “a violation of the Court’s
instructions”; and (4) directed the jury not to discuss the incident -- all “to make
sure that [the jury] understood what the rules are so that there is not a repetition.”
A8-9.
The Court of Appeals rejected Diaz and Acosta’s claim that the failure to
dismiss the jurors -- or at least question them concerning the conversation -violated the defendants’ rights to a fair jury and due process. The Court of
Appeals noted that “[i]t is a generally accepted principle of trial administration
that jurors must not engage in discussions of a case before they have heard both
the evidence and the court’s legal instructions and have begun formally
deliberating as a collective body.” A 9, accord, United States v. Cox, 324 F.3d 77,
86 (2d Cir. 2003) (quotation marks omitted). The Court of Appeals recognized that
once jurors are instructed to refrain from premature deliberation but nevertheless
discuss the case, such behavior may constitute juror misconduct. Id.
The Court of Appeals held that such misconduct can occur even after deliberations
commence, if two or more jurors deliberate outside the presence of all twelve
5

jurors contrary to the district court’s instruction. A 9.
The Court of Appeals recognized that when a trial court is “[f]aced with a
credible allegation of juror misconduct during trial, a court has an obligation to
investigate and, if necessary, correct the problem.” A 9; accord, United States v.
Haynes, 729 F.3d 178, 191 (2d Cir. 2013).
The Court of Appeals also observed that a district court’s investigation of
juror misconduct is a “delicate and complex task.” A 9; accord, United States v.
Thomas, 116 F.3d 606, 618 (2d Cir. 1997). The Court of Appeals reviews a trial
judge’s handling of juror misconduct for abuse of discretion. 9; accord, United
States v. Vitale, 459 F.3d 190, 197 (2d Cir. 2006).
Applying these principles to the irregularities in the Diaz and Acosta jury
deliberations, the Court of Appeals held that the district court did not abuse its
discretion in handling the alleged juror misconduct and that it was not error for the
district court to decline to interview the tow jurors who had been overheard
discussing the case in the hallway. A 10.
The Court of Appeals was under the misapprehension that neither defendant
requested that the jurors involved be questioned about the substance of the
conversation, A 010. The Court worried that questioning of the jurors could
“highlight[] the issue unnecessarily, disrupt[] the trial, and impair[] the ability of
the jurors to deliberate with each other.” Id.
The Court of Appeals believed that the district court approached the alleged
misconduct in a balanced manner because:
6

The alleged misconduct at issue appeared to be a few brief statements from
one juror to another after deliberations commenced.
The reported statement were ambiguous as to whether they constituted
improper deliberations because the juror’s statements could have easily
been a reference to the court’s instruction about the burden of proof, which
had occurred earlier in the day.3
The comments suggest that the juror was taking the oath seriously by
understanding the gravity of the charges and the consequences for the
defendants.
There was an insufficient basis to dismiss either juror where one juror was
merely talking to the other juror about the general importance of ensuring
that they did not convict an innocent man.
A-010-11.
The Court of Appeals noted that Diaz’s defense counsel requested that the
less talkative juror be asked whether her ability to be fair and impartial had been
impacted by the conversation. A-010. The Court of Appeals held, however, that
the District Court did not abuse its discretion in declining to do so, especially
given the apparently benign nature of the comments and that “the possibility of
any far-reaching conversation regarding views on the case was minimal.” Id.,
quoting United States v. Abrams, 137 F.3d 704, 708 (2d Cir. 1998).
The Court of Appeals held that the district court acted prudently in
addressing the intra-jury communications by reminding the jury that it may not
deliberate without the entire group present and making clear that such conduct

The Court of Appeals noted that “[n]ot every comment a juror may make
to another juror about the case is a discussion about a defendant’s guilt or
innocence that comes within a common sense definition of deliberation.” Accord,
United States v. Peterson, 385 F.3d 127, 135 (2d Cir. 2004).
3

7

would be a violation of the district court’s rules. A-010-11, quoting United States
v. Thai, 29 F.3d 785, 803 (2d Cir. 1994) (“The court has broad flexibility in such
matters, especially when the alleged prejudice results from statements made by the
jurors themselves, and not from media publicity or other outside influences.”
(quotation marks omitted)).
Under these particular circumstances, the Court of Appeals ruled that the
district court’s “reiteration of its cautionary instructions to the jury is all that [was]
necessary,” Abrams, 137 F.3d at 708 (quoting Thai, 29 F.3d at 803), and that there
was no abuse of discretion in the district court’s handling of the alleged juror
misconduct. A-011.
Reasons for Granting the Petition
Certiorari should be granted to set the standards as to the scope
of the inquiry that must be conducted by a trial court that has
been alerted as to potential juror misconduct prior to the return
of a verdict, in order to establish the proper balance between a
defendant’s constitutional rights, the ascertainment of truth, and
the protection of the integrity of the jury process, and in order to
encourage uniformity in the practices of the district courts in
various circuits.
“One touchstone of a fair trial is an impartial trier of fact –‘a jury capable
and willing to decide the cases solely on the evidence before it.’” McDonough
Power Equipment, Inc. v. Greenwood, 464 U.S. 548, 554 (1984), quoting Smith v.
Philips, 455 U.S. 209, 217 (1982). The jury is a fundamental safeguard of
individual liberty, Federalist No. 83, p. 451 (B. Warner ed. 1818) (A. Hamilton).
The right to a jury trial in criminal cases was part of the Constitution as first
drawn, and it was restated in the Sixth Amendment. Art. III, § 2, cl. 3; Amdt. 6. A
8

criminal defendant has a due process and Sixth Amendment right to an impartial
and competent jury. Pena-Rodriguez v. Colorado, 580 U.S. __, 137 S. Ct. 855,
860, 197 L.Ed.2d 107 (2017); Tanner v. United States, 483 U.S. 107 (1987).
This Court has provided considerable guidance concerning the obligations
of a trial court to inquire, or not inquire, into jury deliberations where juror
misconduct is alleged after a verdict has been returned. See, e.g., Tharpe v.
Sellers, ___ U.S. ___, 138 S.Ct. 545 (2018) (per curiam) ( on the “unusual facts of
this case,” the Court of Appeals’ review should not have rested on the ground that
it was indisputable among reasonable jurists that a black defendant was not
prejudiced when he was sentence to death by a jury that included a juror who
questioned whether black people have souls); Pena-Rodriguez, 137 S.Ct. at 855
(where juror makes a clear statement that he relied on racial stereotypes or animus
to convict, trial court permitted to receive evidence of statement and of any
resulting denial of jury trial guarantee); Warger v. Shauers, U.S. ___, 135 S.Ct.
521, 190 L.Ed.2d 422 (2014) (in civil case, a juror’s affidavit revealing that
another juror had lied during voir dire deemed “internal” and was thus
inadmissible); Tanner v. United States, 483 U.S. 107, 107 S.Ct. 2739, 97 L.Ed.2d
90 (1987) (evidence that some jurors were under the influence of drugs or alcohol
could not be considered); Parker v. Gladden, 385 U.S. 363, 365, 87 S.Ct. 468, 17
L.Ed.2d 420 (1966) (bailiff's improper comments about the defendant); Remmer
v. United States, 347 U.S. 227, 228-230, 74 S.Ct. 450, 98 L.Ed. 654 (1954) (bribe
offered to juror); Mattox v. United States, 146 U.S. 140, 149, 13 S.Ct. 50, 36
9

L.Ed. 917 (1892) (extraneous influence on the jury of newspaper reports).
The Court has not, however, had the occasion to provide guidance as to the
scope and method of inquiry that is authorized where potential juror misconduct is
brought to the trial court’s attention prior to the return of a verdict.
Here, the trial court instructed the jurors at the end of each day of the
evidentiary phase of the trial not to talk about the case, either with fellow jurors or
others. See, e.g., 3/12 Tr. 49-50. It instructed the jurors that during the
deliberation phase, they should not discuss the case unless all twelve jurors were
present. 3/27 Tr. 1842.
At least one juror disregarded that instruction -- less than two hours after it
was given. A second juror may or may not have disregarded the instruction, but
she certainly did not report to the court that the court’s orders were being
somewhat flagrantly disobeyed.
The district court should have granted both defendants’ requests to excuse
the talking juror, who had disobeyed the order so soon after it was given. See
United States v. Fazio, 770 F.3d 160, 170 (2d Cir. 2014) (finding no abuse of
discretion when district court "determined that the juror continued to violate the
instructions of the court such that the district court had reasonable cause to believe
that the juror could no longer serve according to her oath").
The court at least should have granted Diaz’s request to inquire. Its reasons
for refusing to do so are problematical.
The court’s first reason was that the jury had been deliberating for only an
10

hour or an hour-and-one-half before the juror misconduct occurred. While we are
not exactly sure of the significance of that observation, the court seems to suggest
that the problem had been nipped in the bud before anything of significance had
occurred.
This seems purely speculative. There may be some juries that spend the
first hour-and-one-half of deliberations choosing a foreperson, discussing the
weather, and debating the merits of various sports teams. There may also be
juries, like the fictitious jury in Twelve Angry Men, that quickly take a vote,
determine that they are eleven-one-way and one-the-other, and enter into a course
of deliberations that are calculated to dissuade the holdout. There is no
justification for declining carefully to address juror misconduct simply because
the jury’s deliberations have been short.
Second, the district court feared that, if it inquired, a questioned juror might
disclose deliberations or how the jury was divided. This, too, seems meritless.
Granted, “[s]uch questioning must be pursued cautiously. . . so as not to intrude on
one of the cornerstones of our jury system: preservation of the secrecy of jury
deliberations.” United States v. Spruill, 808 F.3d 585,593 (2d Cir. 2015). In
examining juror misconduct claims, courts frequently begin their inquiries by
warning each questioned juror to say nothing as to the deliberations themselves
and how the jury is divided; we know of no authority that suggests that jurors have
difficulty in following that request; and courts conduct such inquiries all the time
without endangering jury secrecy. Furthermore, the kind of inquiry that was
11

called for in this situation – concerning a conversation that took place entirely
outside the jury deliberation room, a conversation that seems to have had nothing
to do with the deliberations themselves – was unlikely to elicit information better
kept secret. “In many cases, a presiding judge is able to determine whether there
is ‘just cause’ to dismiss a deliberating juror without any inquiry into the juror's
thoughts on the merits of the case, United States v. Tyhomas, 116 F.3d 606, 620
(2d Cir. 1997) – and this was one of them.
The district court had very limited information about what happened. The
witness did not purport to present a complete description of the jurors’
conversation: she made clear that she had heard only a snippet; that she had
dropped back when she was told the people talking about the case were jurors; that
she could not hear what the less talkative juror might have said; and that she did
not hear portions of the conversation even when she was behind the jurors. What
she did hear was puzzling. She did not hear what the less talkative juror said in
response to the talking juror’s repeated question “What do you think?” She did
not hear what was said that elicited the talking juror’s statement he was glad he
broke it down that way and glad that they were handling it that way – was the “he”
the trial judge, a prosecutor, a defense counsel, a witness, another juror, and what
was the “it” he was breaking down? How the conversation ended is entirely
unclear, although it seems certain that the witness did not surveill the jurors to
determine whether they retired to a local bar and plotted strategy as to how to
bring the other jurors around or, like the jurors in Twelve Angry Men, stood on the
12

courthouse steps, saying uneasy goodbyes, then went their separate ways. Only
the jurors themselves could have provided that information.
The district court misconstrued the Diaz defense request. Counsel asked
that the speaking juror be excused and suggested that the court could then inquire
of the listening juror as to whether the speakers statements had influence her.
That, she said, was Diaz’s request. There was, however, no reason to correct the
district judge when he said that no one had requested inquiring of the jurors,
because the district judge ruled categorically that he would not question the
problematic jurors, whether the request had been made explicitly or not.
This Court has observed that a criminal defendant’s Sixth Amendment
interest in an unimpaired jury is protected by several aspects of the trial while it is
in process. Tanner, 483 U.S. at 127. The suitability of an individual for the
responsibility of jury service is examined during voir dire. The jury is observable
by the court, by counsel, and by court personnel during the course of the trial. See
United States v. Provenzano, 620 F.2d 985, 996-997 (3d Cir. 1980) (marshal
discovered sequestered juror smoking marijuana during early morning hours).
Jurors are observed by each other, and they may report inappropriate juror
behavior to the court before they render a verdict. See, e.g., Lee v. United States,
454 A.2d 770 (DCApp.1982), cert. denied sub nom. McIlwain v. United States,
464 U.S. 972 (1983) (on second day of deliberations, jurors sent judge a note
suggesting that foreperson was incapacitated). Or, as here, people in the
courthouse who have no involvement in the case may observe and report
13

misconduct. These protections, however, are restricted if there is no follow-up to
the reported or observed juror improprieties.
A defendant’s Sixth Amendment right to an impartial and competent jury
and the rule that a jury’s verdict is not to be impeached frequently collide. This
Court has addressed how these competing interests should be weighed in different
scenarios, depending largely on whether the misconduct involves extraneous or
internal matters. See, e.g., Mattox v. United States, 146 U.S. 140 (1892) (trial court
must admit affidavits of jurors that newspapers had been brought into the jury
room because it involved an extraneous influence); Tanner v. United States, 483
U.S. 107 (1987) (prohibiting affidavits about the jurors drinking during the trial);
Warger v. Shauers, 135 S.Ct. 521 (2014) (in civil case, a juror’s affidavit revealing
that another juror had lied during voir dire deemed “internal” and thus
inadmissible).
There are exceptions to the no-impeachment rule in the " gravest and most
important cases." United States v. Reid, 53 U.S. 361, 12 How. 361, 13 L.Ed. 1023;
McDonald v. Pless, 238 U.S. 264, 269, 35 S.Ct. 783, 59 L.Ed. 1300 (1915). Such
cases include those where a juror makes a clear statement that he or she relied on
racial stereotypes or animus to convict a criminal defendant. Pena-Rodriguez, 137
S.Ct. at 869.
In all of these cases, however, the alleged jury misconduct was brought to
the trial court’s attention after a verdict had been returned. Different
considerations apply when jury misconduct is discovered prior to the rendering of
14

a verdict. Finality is an obvious consideration. The safeguards for a defendant’s
right to an impartial and competent jury that are in place during the course of a
trial “do not undermine the stability of a verdict once rendered.” Pena-Rodriguez,
137 S.Ct. at 866. A variety of remedies are available to a trial judge where juror
misconduct is brought to the court’s attention prior to the return of a verdict that
are not available post-verdict. A juror may be replaced with an alternate or
specifically crafted instructions may alleviate the prejudice arising from
misconduct.
This issue is recurring and the case law lacks cohesion. This is illustrated
by a comparison of this case with a very similar case in the Second Circuit,
United States v. Haynes, 729 F.3d 178, 191-92 (2d Cir. 2013). There, defense
counsel reported to the trial court that he had heard from one of the alternate jurors
that prior to deliberations " some of the women on the jury had said that [the
defendant] might be guilty, [because] she's here." 729 F.3d at 191. The trial court
declined to investigate the matter or to speak with the alternate regarding the
jurors' alleged comments even though the Court conceded that it was not disputing
the accuracy of the alternate juror's account. The Court of Appeals held that the
trial court had “abused its discretion by not conducting any inquiry about what the
Court acknowledged might be an accurate allegation of juror misconduct. . . .
Without ever disturbing the jury deliberations, the Court could have asked the
alternate juror what exactly was said and by whom, and then made a determination
of what, if any, further investigation was required. Only if the preliminary inquiry
15

produced a specific and credible reason to conduct further inquiries would it have
been necessary to pursue further measures.” 729 F.3d at 192.
The lack of cohesion is also illustrated by a comparison of this case with
similar cases in other circuits. In United States v. Resko, 3 F.3d 684 688-695 (3d
Cir. 1993), for example, a juror informed a court officer that jurors had engaged in
premature discussions about the case, despite having been warned not to do so.
The trial court required the jurors to answer a written questionnaire. All twelve
admitted to having discussed the facts of the case with other jurors; all twelve
stated that they had not formed opinions about the guilt of the defendant. Like the
trial court here, the court declined to conduct any further inquiry. The Court of
Appeals reversed the jury’s later conviction. “We conclude that the district court
erred by declining to engage in further inquiry--such as individualized voir
dire--upon which it could have determined whether the jurors had maintained open
minds. By failing to do so, the district court allowed the jurors, in effect, to be the
judge of whether or not they had been influenced by their premature discussions.”
Id. at 691.
“The challenge … is to find the balance that honors the individual
guarantees of our Constitution without undertaking ‘efforts to perfect’ the jury
system that instead destroy it.’” Tanner, 483 U.S. at 142 (Marshall, J., concurring
in part and dissenting in part). This Court should take this opportunity to set
standards for the scope of inquiries into juror misconduct that are reported prior to
the return of a verdict in order to provide guidance as to the proper balance
16

between a defendant’s constitutional rights, the ascertainment of truth, and the
protection of the integrity of the jury process.
Conclusion
For the reasons set forth above, the petitioner, Jose Diaz, respectfully
requests that a writ of certiorari issue to review the judgment and opinion of the
Court of Appeals for the Second Circuit.
Respectfully submitted,
/s/
JEREMIAH DONOVAN
123 Elm Street--Unit 400
P.O. Box 554
Old Saybrook, CT 06475
(860) 388-3750
Juris no. 305346
Fed.bar.no. CT 03536

17

________________________________
No. __________________
________________________________
In the

Supreme Court of the United States
January Term, 2021
________________________________
JOSE DIAZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
_________________________________
Appendix to the Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
________________________________
Jeremiah Donovan
123 Elm Street, Unit 400
Post Office Box 554
Old Saybrook, CT 06475
(860) 388-3750
Attorney for the Petitioner

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page1 of 15

19-2189(L)
United States v. Acosta, Diaz

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT=S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
ASUMMARY ORDER@). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
2nd day of November, two thousand twenty.
PRESENT:
JON O. NEWMAN,
RICHARD C. WESLEY,
JOSEPH F. BIANCO,
Circuit Judges.
_____________________________________
United States of America,
Appellee,
v.

19-2189(L); 19-2294(CON)

Robert Acosta, AKA Robert Acevedo-Acosta,
AKA Ruberto Mojico, AKA Robert
Mojicaisaacs, Jose Diaz, AKA Cano,
Defendants-Appellants.
_____________________________________
For Appellee:

NICHOLAS CHIUCHIOLO, Assistant United
States Attorney (Michael Krouse and
Thomas McKay, Assistant United States
Attorneys, on the brief), for Audrey Strauss,
Acting United States Attorney for the
Southern District of New York, New York,
NY.
1

A-001

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page2 of 15

For Defendant-Appellant Acosta:

THOMAS EDDY (Patrick Jerome Brackley, on
the brief), Law Office of Patrick J. Brackley,
New York, NY.

For Defendant-Appellant Diaz:

JEREMIAH DONOVAN, Law Offices of
Jeremiah & Terry Donovan, Old Saybrook,
CT.

Appeal from judgments of conviction of the United States District Court for the Southern
District of New York (Castel, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is AFFIRMED.
Robert Acosta and Jose Diaz appeal from judgments of conviction, entered July 12, 2019,
following a three-week jury trial. Both Acosta and Diaz were convicted for their role in the
murders of Alex Ventura (“Ventura” or “Alex Ventura”) and Aneudis Almonte on December 22,
1997, in the Bronx, New York. Specifically, both Acosta and Diaz were convicted of: (1) one
count of conspiring to commit a murder-for-hire, in violation of 18 U.S.C. § 1958; and (2) two
counts of the commission of a murder-for-hire, which resulted in the deaths of Ventura and
Almonte, respectively, in violation of 18 U.S.C. §§ 1958 and 2. Acosta was separately convicted
of two counts of murder, during and in relation to a conspiracy to distribute five kilograms or more
of cocaine, in violation of 21 U.S.C. § 848(e)(1)(A) and 18 U.S.C. § 2, in connection with the
Ventura and Almonte murders, respectively. Diaz was separately convicted of using a firearm
during and in relation to the Ventura murder, in violation of 18 U.S.C. §§ 924(j) and 2. The district
court sentenced both defendants principally to life imprisonment.
We assume the parties’ familiarity with the underlying facts and procedural history, which
we reference only as necessary to explain our decision to affirm.

2

A-002

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page3 of 15

I.

Sufficiency of the Evidence

We review challenges to the sufficiency of the evidence de novo. United States v. Yannotti,
541 F.3d 112, 120 (2d Cir. 2008). However, “we must view the evidence in the light most
favorable to the government, crediting every inference that could have been drawn in the
government’s favor, and deferring to the jury’s assessment of witness credibility, and its
assessment of the weight of the evidence.” United States v. Chavez, 549 F.3d 119, 124 (2d Cir.
2008) (citations, brackets, and quotation marks omitted), abrogated on other grounds by Dean v.
United States, 137 S. Ct. 1170 (2017). Thus, an appellant claiming insufficient evidence bears a
“heavy burden,” United States v. Gaskin, 364 F.3d 438, 459 (2d Cir. 2004) (quotation marks
omitted), as the standard of review is “exceedingly deferential,” United States v. Hassan, 578 F.3d
108, 126 (2d Cir. 2008). A conviction must be upheld if “any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443
U.S. 307, 319 (1979).
In summary, construing the trial record in the light most favorable to the government, the
evidence at trial established the following: Acosta was the leader of a crew that trafficked large
quantities of cocaine in northern Manhattan in the 1990s. In the summer of 1997, two of Acosta’s
workers stole roughly $200,000 in drug proceeds from one of his stash houses. To retaliate, Acosta
sought the help of a family friend, Richard Collado, to punish the burglars. Collado introduced
Acosta to Diaz. Acosta then hired Diaz to kill the two workers whom Acosta had come to suspect
were responsible for the theft of the drug proceeds. Diaz expressed to Collado that killing the two
individuals responsible for the burglary was a two-person job; Diaz recruited an associate, Charles
Sanders, to assist Diaz. On December 22, 1997, Diaz and Sanders lured the two workers, Ventura
and Almonte, to an apartment building in the Bronx and ambushed them in a stairwell. Sanders

3

A-003

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page4 of 15

repeatedly stabbed Almonte, and Diaz shot Ventura in the head. Both victims died from their
wounds.
Acosta and Diaz challenge the sufficiency of the evidence on several grounds. First,
Acosta argues that the evidence was insufficient to satisfy the jurisdictional element under 18
U.S.C. § 1958, which requires the use of an interstate commerce facility in the commission of a
murder-for-hire. Second, Acosta contends that there was insufficient proof at trial to establish the
existence of an ongoing narcotics conspiracy, or the intent to kill Ventura, as required for a
conviction under 18 U.S.C. § 848(e)(1)(A). Finally, Diaz asserts that all of his convictions should
be vacated because they were based almost entirely upon unreliable testimony of cooperating
witness Collado. Diaz Br. at 47–48. We conclude that all of these sufficiency challenges are
without merit.
With respect to Acosta’s challenge to the jurisdictional element under 18 U.S.C. § 1958,
the government may establish that a defendant used “any facility of interstate . . . commerce” in
the commission of the murder-for-hire through proof that an interstate telephone call facilitated
the murder, or proof that an intrastate call made on an interstate telephone network facilitated the
murder. See United States v. Perez, 414 F.3d 302, 304–05 (2d Cir. 2005). Here, the government
offered, among other things, evidence that Acosta’s mother asked Collado to find someone to kill
the men who had stolen her son’s drug money. As to the interstate nature of this call, there was
trial testimony that Acosta, while at a restaurant in the Bronx, handed a cell phone to Collado who
spoke to Acosta’s mother, who was in Miami, regarding the murder request. This evidence clearly
established that an interstate telephone call, between New York and Florida, was used to facilitate
the murder-for-hire plot. Therefore, on this testimony, there was sufficient evidence to satisfy the
jurisdictional element under 18 U.S.C. § 1958.

4

A-004

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page5 of 15

Although Acosta asserts that Collado’s call with Acosta’s mother was erroneously
admitted, we disagree. Collado’s conversation with Acosta’s mother was admissible as a statement
between co-conspirators under Federal Rule of Evidence 801(d)(2)(E). Acosta contends that the
substance of the conversation was not related to the murder-for-hire conspiracy because Acosta’s
mother was not a member of the conspiracy. However, it was reasonable to infer that Acosta might
seek his mother’s help in handling problems with his drug business, especially in light of the
evidence that she was one of the few people that Acosta trusted, Acosta sent her his drug profits
for safekeeping, and, after a robbery in 1994, she sent Acosta money to pay a drug supplier he
owed. Moreover, Collado testified that Acosta’s mother asked that the burglars be “fixed up,”
which he understood to mean to murder them. App’x at 1114. In short, it was not an abuse of
discretion to admit the evidence, and Acosta’s challenges were factual questions for the jury to
resolve in their weighing of the evidence, with no basis on this record to disturb their rational
finding. See United States v. Gupta, 747 F.3d 111, 124 (2d Cir. 2014).
Next, with respect to the conviction under 21 U.S.C. § 848(e)(1)(A), Acosta contends that
there was insufficient evidence at trial to support a finding by the jury of an ongoing drug
conspiracy at the time of the murders. For a conviction under this statute, the government must
prove that, while “engaging in” a qualifying drug offense (which includes a drug conspiracy), the
defendant “intentionally kills or counsels, commands, induces, procures, or causes the intentional
killing of an individual and such killing results.” 21 U.S.C. § 848(e)(1)(A). We have made clear
that the government need only prove that “one motive for the killing (or conspiracy to kill) was
related to the drug conspiracy.” United States v. Desinor, 525 F.3d 193, 202 (2d Cir. 2008)
(emphasis in original). Additionally, with respect to the drug conspiracy that is serving as the
predicate offense, the “engaging in” element of § 848(e)(1)(A) is satisfied “[s]o long as the

5

A-005

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page6 of 15

defendant enters into the unlawful agreement before the killing, and the conspiracy is ongoing
when the killing occurs.” United States v. Santos, 541 F.3d 63, 68 (2d Cir. 2008).
The government introduced a plethora of evidence to support a rational finding by the jury
that Acosta was actively engaged in an ongoing drug conspiracy at the time of the murders. First,
Carlos Taveras, one of Acosta’s workers who packaged and sold drugs on his behalf, testified that
he was working at one of Acosta’s drug locations the night of the murders. Taveras testified that
he worked until midnight that evening and returned to the same location for work at noon the
following day. Taveras further testified that he continued to work at that location until he was
arrested and incarcerated several months after the murders. Moreover, Collado testified that he
began working full time for Acosta’s drug organization several months after the murders, and that
Acosta’s business continued to operate from two of Acosta’s drug locations. In addition, the
compelling evidence that the motive for the murders was to seek revenge on those responsible for
the burglary of Acosta’s stash house, although alone insufficient to satisfy the “engaging in”
element, served as additional evidence from which the jury could find that the drug conspiracy
was ongoing at the time of the murders. See id. at 68, 75. In short, viewing the record in the light
most favorable to the government, the evidence was sufficient for a rational jury to conclude that
Acosta was engaged in an ongoing narcotics conspiracy at the time of the murders.
Acosta next argues that there was insufficient evidence for the jury to find that he
intentionally caused the death of Alex Ventura because he hired Diaz to kill Hinton Ventura, not
Alex Ventura, and the jury was not instructed on the doctrine of “transferred intent.” Acosta Br.
at 52–55. 1 This argument is also unpersuasive. The doctrine of transferred intent permits the jury

1

The evidence at trial established that Hinton Ventura, who was Alex’s brother, managed one of Acosta’s drug
distribution locations in Manhattan. According to the government’s proof, Acosta initially suspected Hinton and
Almonte were the two workers who had stolen over $200,000 from the location and, thus, Acosta had hired Diaz to
kill them even though it was actually Alex (not Hinton) and Almonte who had taken the money.

6

A-006

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page7 of 15

to attribute or “transfer” the intent to kill, when a defendant shoots at one person with intent to kill,
but inadvertently kills another person. United States v. Rahman, 189 F.3d 88, 141 (2d Cir. 1999).
The case at hand, however, is not an inadvertent shooting. Diaz pointed a gun to Alex Ventura’s
head and pulled the trigger, killing him instantly. It is indisputable that this was an intentional
killing, as the district court correctly defined it. Although it was Acosta’s original intention that
Hinton Ventura (not Alex Ventura) be killed, the jury could have rationally inferred that his motive
and broader intent was to kill the individual responsible for the burglary (whom he initially
believed to be Hinton Ventura), and thereby aided and abetted in the murder of Alex Ventura for
that burglary. Such a rational inference regarding Acosta’s broader intent could have been drawn
from the evidence the government provided to the jury establishing that Acosta’s motive for the
killing was drug related, as well as the evidence that, after learning that Alex Ventura (and
Almonte) had been killed, instead of Hinton Ventura, Acosta still directed Collado to pay Diaz for
carrying out the murders. In sum, the government introduced sufficient evidence from which a
rational jury could find that Acosta had the requisite intent in connection with the killing of Alex
Ventura.
Finally, Diaz challenges the sufficiency of the evidence of his guilt “[g]iven the character
of [Collado] on whose testimony the convictions rested.” Diaz Br. at 46. This legal contention is
foreclosed by our binding precedent. In assessing sufficiency arguments, this Court must defer to
the jury’s assessment of witness credibility. United States v. Coplan, 703 F.3d 46, 62 (2d Cir.
2012). More specifically, we have emphasized that it is “well established that a federal conviction
may be supported ‘by the uncorroborated testimony’ of even a single accomplice witness ‘if that
testimony is not incredible on its face and is capable of establishing guilt beyond a reasonable
doubt.’” United States v. Florez, 447 F.3d 145, 155 (2d Cir. 2006) (quoting United States v.

7

A-007

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page8 of 15

Parker, 903 F.2d 91, 97 (2d Cir. 1990)). Diaz fails to persuasively explain why Collado’s
testimony could not be credited, and relied on, by the jury. Collado was subject to two days of
vigorous cross-examination by defense counsel, in which counsel sought to undermine his
credibility and attack his character. Based on its verdict, the jury ultimately credited Collado’s
testimony, which was corroborated by other witnesses and exhibits admitted into evidence.
Therefore, Diaz’s challenge to his conviction through an attack on Collado’s credibility is
unavailing.
Accordingly, all of Acosta and Diaz’s arguments regarding the sufficiency of the evidence
fail based upon the trial record.
II.

Alleged Juror Misconduct

Acosta and Diaz argue that the district court erred in its handling of alleged juror
misconduct, that is, on the first day of deliberations, two jurors may have had a conversation
regarding the case outside the presence of other jurors.
The circumstances surrounding this particular issue can be summarized as follows: On
March 27, 2019, the district court charged the jury, and the jurors deliberated for the remainder of
the afternoon. Before the jurors left the courtroom to deliberate, the district court instructed the
jury that they must only deliberate with all 12 jurors present. The next morning, the district court
informed the parties that another attorney observed one juror speaking to another juror and
believed that the juror was “discussing the case.” App’x at 2048. The attorney overheard one
juror ask another juror, “So what do you think?” App’x at 2049. The listening juror looked at the
other juror “strangely,” and the other juror continued by stating, “Well, I’m glad he broke it down
that way. I don’t want to send a person to prison if he didn’t do it so I am glad they are handling
it that way.” App’x at 2049. After hearing this information, and consulting with counsel about

8

A-008

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page9 of 15

whether to question the jurors about their conversation and ability to be impartial, the district court
declined Diaz’s request that the juror who made the statement be dismissed, as well as Acosta’s
request that both jurors be excused. Instead of questioning the individual jurors or dismissing
them, the district court gave a strongly-worded instruction to the entire jury which: (1) reminded
the jury of the instruction regarding discussing the case only when all 12 jurors are present; (2)
alerted the jury that it had come to the district court’s attention that two jurors were overheard
discussing the case as they exited the courthouse; (3) emphasized that such a discussion was
“improper conduct” that is “a violation of the Court’s instructions”; and (4) directed the jury not
to discuss the incident, all “to make sure that [the jury] understood what the rules are so that there
is not a repetition.” App’x at 2053–54.
“It is a generally accepted principle of trial administration that jurors must not engage in
discussions of a case before they have heard both the evidence and the court’s legal instructions
and have begun formally deliberating as a collective body.” United States v. Cox, 324 F.3d 77, 86
(2d Cir. 2003) (quotation marks omitted). Once jurors are instructed to refrain from premature
deliberation but nevertheless discuss the case, such behavior may constitute juror misconduct. Id.
Such misconduct can occur even after deliberations commence, if two or more jurors deliberate
outside the presence of all twelve jurors contrary to the district court’s instruction. If a district
court is “[f]aced with a credible allegation of juror misconduct during trial, a court has an
obligation to investigate and, if necessary, correct the problem.” United States v. Haynes, 729
F.3d 178, 191 (2d Cir. 2013). A district court’s investigation of juror misconduct is a “delicate
and complex task.” United States v. Thomas, 116 F.3d 606, 618 (2d Cir. 1997). This Court reviews
a trial judge’s handling of juror misconduct for abuse of discretion. United States v. Vitale, 459
F.3d 190, 197 (2d Cir. 2006).

9

A-009

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page10 of 15

The district court did not abuse its discretion in handling the alleged juror misconduct.
Given that neither defendant requested that the jurors involved be questioned about the substance
of the conversation, and that questioning jurors itself may “highlight[] the issue unnecessarily,
disrupt[] the trial, and impair[] the ability of the jurors to deliberate with each other,” the district
court approached the alleged misconduct in a balanced manner. Cox, 324 F.3d at 88. The alleged
misconduct at issue appeared to be a few brief statements from one juror to another after
deliberations commenced and were ambiguous as to whether they constituted improper
deliberations because the juror’s statements could have easily been a reference to the court’s
instruction about the burden of proof, which had occurred earlier in the day. Importantly, “[n]ot
every comment a juror may make to another juror about the case is a discussion about a defendant’s
guilt or innocence that comes within a common sense definition of deliberation.” United States v.
Peterson, 385 F.3d 127, 135 (2d Cir. 2004). In any event, the comments suggest that the juror was
taking the oath seriously by understanding the gravity of the charges and the consequences for the
defendants.
In addition, there was an insufficient basis to dismiss either juror where one juror was
merely talking to the other juror about the general importance of ensuring that they did not convict
an innocent man. Similarly, although one defense counsel requested that the other juror be asked
whether her ability to be fair and impartial had been impacted by the conversation, the district
court did not abuse its discretion in declining to do so, especially given the benign nature of the
comments and that “the possibility of any far-reaching conversation regarding views on the case
was minimal.” United States v. Abrams, 137 F.3d 704, 708 (2d Cir. 1998). Instead, the district
court acted prudently in addressing the intra-jury communications by reminding the jury that it
may not deliberate without the entire group present and making clear that such conduct would be

10

A-010

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page11 of 15

a violation of the district court’s rules. See United States v. Thai, 29 F.3d 785, 803 (2d Cir. 1994)
(“The court has broad flexibility in such matters, especially when the alleged prejudice results
from statements made by the jurors themselves, and not from media publicity or other outside
influences.” (quotation marks omitted)). Under these particular circumstances, the district court’s
“reiteration of its cautionary instructions to the jury is all that [was] necessary.” Abrams, 137 F.3d
at 708 (quoting Thai, 29 F.3d at 803). We find no abuse of discretion in the district court’s handling
of the alleged juror misconduct.
III.

Collado’s Out-of-Court Identifications

Diaz argues that the district court erred by allowing NYPD Detective Michael Lagiovane
to read to the jury prior consistent statements by Collado, regarding his identification of Diaz and
another individual as involved in the murders, because there was insufficient evidence in the record
that Collado was the person who made the identifications. It is a well settled principle that the
district court has “broad discretion” over the admission of evidence. United States v. Nektalov,
461 F.3d 309, 318 (2d Cir. 2006). Thus, a district court’s ruling regarding the admission of
evidence is reviewed for abuse of discretion and reversed only when the district court has acted
“arbitrarily or irrationally.” Id. (quotation marks omitted). When an objection has not been raised
below, it is reviewed on appeal for plain error. United States v. Marcus, 560 U.S. 258, 262 (2010).
Diaz’s argument, raised for the first time on appeal, is without merit.
After the murders, Collado became an informant for the Drug Enforcement Administration
(“DEA”) and told his DEA handler about his involvement in the killing of Ventura and Almonte.
Collado explained to him that Acosta ordered the murders and that two individuals, whom he knew
only by nickname, were responsible – “Cano” (Diaz) and “Chucky” (Sanders). App’x at 849.
Collado further testified that he was then interviewed and shown photobooks over the course of

11

A-011

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page12 of 15

several days, by NYPD detectives investigating the murders, to determine if he could identify the
perpetrators. Collado ultimately identified Diaz and Sanders. Detective Lagiovane was present
for both identifications and prepared reports memorializing them, but by the time of trial did not
recall the identifications or the identity of the informant, and thus read the reports of the
identifications into the record as prior recollections recorded under Federal Rule of Evidence
803(5). The reports read into the record did not contain Collado’s name, but rather referred to an
unnamed confidential informant identifying photos of Diaz and Sanders as those responsible for
the murders. Diaz objected to the admission of this evidence as “double hearsay.” App’x at 1145.
After hearing argument, the district court overruled the objection under Federal Rule of Evidence
801(d)(1)(B) because the statements of Collado memorialized in the NYPD reports were prior
consistent statements offered “to rebut an express or implied charge that the declarant, meaning
Mr. Collado, recently fabricated or acted from a recent improper influence or motive in testifying
in this case.” App’x at 1151.
On appeal, Diaz does not argue that the elements of a prior consistent statement, or the
foundation for past recollection recorded, were not met in connection with this testimony. Instead,
he contends that the testimony was inadmissible because there was an insufficient basis to establish
that Collado was the confidential informant who made the prior statements and identifications.
That particular argument, however, was not raised before the district court. In fact, in objecting to
the evidence at trial on “double hearsay” grounds, Diaz’s counsel accepted that Collado was the
declarant of the statement and identifications. See App’x at 1146 (“[A]ll of this is just information
that was told to [Detective Lagiovane] by Mr. Collado.”).
In any event, it is axiomatic that “[i]dentity can be inferred through circumstantial
evidence.” United States v. Kwong, 14 F.3d 189, 193 (2d Cir. 1994). Here, there was sufficient

12

A-012

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page13 of 15

circumstantial evidence in the record to support a rational inference that Collado was the unnamed
confidential informant in the reports who had made the statements and identifications.

In

particular, both Collado and his DEA handler testified that Collado provided information to the
NYPD detectives about the murders, and there was no evidence that the NYPD had more than one
informant during the initial investigation into the murders.

Moreover, there were many

consistencies between the NYPD reports and Collado’s testimony regarding the timeframe and
substance of the interviews. For example, the dates of the reports, January and February 2000,
were consistent with Collado’s testimony that he met with the NYPD several times in November
or December of 1999 after returning from the Dominican Republic, when he identified Diaz and
Sanders. In addition, the reports were consistent with Collado’s testimony that he identified the
photographs of the two individuals on different dates and only by their nicknames. Diaz argues
that the confidential informant was someone other than Collado because the reports do not
reference all the officers with whom he recalled speaking, and one of the reports states that the
identification occurred at a different precinct from the one Collado mentioned. Given that Collado
was testifying at trial more than 18 years after making the identifications, and in light of the strong
circumstantial evidence that Collado was the declarant in those reports, any such discrepancies go
to the weight, not the admissibility, of the records. See United States v. Schultz, 333 F.3d 393, 416
(2d Cir. 2003) (“[F]actors which make evidence less than conclusive affect only weight, not
admissibility.” (quotation mark omitted)). In short, the district court did not abuse its discretion,
much less plainly err, in its admission of this evidence.
IV.

Diaz’s Post-Arrest Statements

Acosta contends that his Confrontation Clause rights were violated by the district court
when it admitted three statements made by Diaz following his arrest. “Alleged violations of the

13

A-013

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page14 of 15

Confrontation Clause are reviewed de novo, subject to harmless error analysis.” United States v.
Vitale, 459 F.3d 190, 195 (2d Cir. 2006).
The Confrontation Clause bars “admission of testimonial statements of a witness who did
not appear at trial unless he was unavailable to testify, and the defendant had had a prior
opportunity for cross-examination.” Crawford v. Washington, 541 U.S. 36, 53–54 (2004). A
statement is testimonial if it “was given with the primary purpose of creating an out-of-court
substitute for trial testimony.” Ohio v. Clark, 576 U.S. 237, 250–51 (2015) (quoting Michigan v.
Bryant, 562 U.S. 344, 358 (2011)). Acosta’s challenges under the Confrontation Clause fail
because none of the three post-arrest statements by Diaz fall into this ambit of testimonial
statements. The first statement occurred at the FBI offices, when Acosta and Diaz passed each
other in the hallway, and Diaz asked the agent, “Who is that guy?” App’x at 1415. Later that day,
while in the waiting room at the Pretrial Services Office in the courthouse, an agent overheard
Diaz spontaneously say to himself, “I know who that guy is,” referring to Acosta. App’x at 1416.
Given that neither of these statements were made in response to any questioning by the police, it
is clear that such statements were not made as a substitute for trial testimony. The third statement
at issue occurred when, while Diaz was speaking to his ex-wife over the telephone, he was heard
saying, “I think I’m going to cooperate. I am thinking about cooperating.” App’x at 1417–18.
Such a statement, also not in response to any questioning by the police, is non-testimonial. See
Clark, 576 U.S. at 249 (“Statements made to someone who is not principally charged with
uncovering and prosecuting criminal behavior are significantly less likely to be testimonial than
statements given to law enforcement officers.”). In any event, given the fact that none of these
statements by Diaz directly implicated Acosta in any crime, any Confrontation Clause error was
harmless because it is clear, based upon the trial record, “beyond a reasonable doubt that the error

14

A-014

Case 19-2189, Document 167-1, 11/02/2020, 2965177, Page15 of 15

complained of did not contribute to the verdict obtained.” United States v. Becker, 502 F.3d 122,
130 (2d Cir. 2007) (quotation marks omitted).

CONCLUSION
We have reviewed the remainder of Acosta and Diaz’s arguments and conclude that they
are without merit. For the foregoing reasons, the judgment of the district court is AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

15

A-015

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 3 of 10
J3S8ACO1

1

(Trial resumed; jury not present)

2

THE COURT:

1847

I am going to mark as Court Exhibit 11 a

3

note, or e-mail note that I received from Annalisa Miron from

4

the Federal Defenders.

5

Krouse.

6

It's copied to Ms. Marcus and Mr.

It says:
"Dear Judge Castel.

I write to inform the Court about

7

a potential issue relating to the deliberating jury in your

8

current trial.

9

courthouse with defense counsel, I briefly observed one juror

This afternoon, while I was leaving the

10

talking to another juror as they were also leaving the

11

courthouse.

12

discussing the case with the other juror.

13

can identify the two jurors by their numbers.

14

wishes to make any inquiries of me, I can be available in the

15

courtroom at 9:10 tomorrow.

Based on what the juror said, I believe he was
I believe Ms. Marcus
If the Court

I am reachable by cell."

16

Her number is here.

17

"Respectfully, Annalisa Miron."

18

I am grateful to Ms. Miron for sending the note.

19

Ms. Marcus, what can you tell me?

20

MS. MARCUS:

21

numbers, but I can describe the jurors.

22

THE COURT:

23

MS. MARCUS:

24
25

So, unfortunately, I don't remember their

All right.
She is outside the court and can make the

record to your Honor.
THE COURT:

Great.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A113

A-016

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 4 of 10
J3S8ACO1

1

MS. MIRON:

Good morning, your Honor.

2

THE COURT:

Good morning.

3

First of all, thank you for your note.

4

that.

5

court.

Come on in to the well.

1848

I appreciate

You are an officer of this

6

Please tell me what you observed yesterday.

7

MS. MIRON:

8

When I was leaving the courthouse around 5 p.m., Ms.

9

Yes, your Honor.

Marcus and I had been in the attorney lounge.

We walked out.

10

She notified me that a juror was in front of us so I kind of

11

backed up.

12

shorter African American woman, who I later learned to be a

13

second juror, or asking her, "So what do you think?"

14

listening because she kind of looked at him strangely.

He

15

asked again, "So what do you think?"

I

16

didn't hear the whole conversation between that moment and the

17

next thing I heard, but I did then hear him say, "Well, I'm

18

glad he broke it down that way.

19

to prison if he didn't do it so I am glad they are handling it

20

that way."

23

I kept

They kept going.

I don't want to send a person

And that's the last that I heard.

THE COURT:

21
22

I overheard this tall white male juror telling a

OK.

I appreciate that very much.

Thank

you.
Let me say this morning, when I arrived at the

24

courthouse -- first of all, on the way in, I happened to pass

25

Ms. Marcus on the street, who said good morning.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A114

When I got to

A-017

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 5 of 10
J3S8ACO1

1849

1

the courthouse to get in the elevator, Juror No. 3 said, "Am I

2

allowed to ride up with you?"

3

something to me about it still being cold weather.

4

something like, Yes, it is.

5

floor and I said, "Have a good day."

6

And the door closed and she continued on her journey.

7

I said, "Yes."

She said
I said

The elevator arrived at the tenth
And she said, "You too."

What I propose to do is the following:

Is to call the

8

jury in this morning to alert them that information had come to

9

my attention that two jurors may have been discussing the case

10

as they exited the building yesterday afternoon.

11

such discussions when all the jurors are not present is a

12

violation of the Court's instructions and a serious matter that

13

jeopardizes the integrity of the proceedings.

14

instructed that you may not discuss the case, as I instructed

15

you yesterday, unless all 12 of you are present.

16

the jurors return to the jury room.

17

Any objection from the government?

18

MR. KROUSE:

19

THE COURT:

20

MS. MARCUS:

That to have

You are

And then have

No, your Honor.
From the defendants.
Yes.

We would request that -- and I

21

don't remember his number, but the juror that she is talking

22

about who spoke, that he be replaced with an alternate juror,

23

based upon the violation of the Court's instructions to not

24

discuss the case.

25

other juror saying anything so I don't know that we have a

I don't believe Ms. Miron overheard the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A115

A-018

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 6 of 10
J3S8ACO1

1850

1

basis to ask her, although the Court can certainly inquire

2

whether or not his statements to her influenced her in any way.

3

That's our request.

4

THE COURT:

5

said, I'm glad to hear that.

6

talking.

What Ms. Miron said was that the juror
So I assume the two jurors were

7

What did you say?

8

MS. MIRON:

I did only hear the male juror speaking.

9

THE COURT:

Yes, I know that.

10

MS. MIRON:

And he said, "I'm glad he broke it down

11

that way.

I don't want to send a man to prison if he didn't do

12

it so I'm glad it's being handled that way."

13

speaking; I never heard the woman speak.

14

THE COURT:

15

discussion that they spoke.

Well, I'm assuming for the purpose of this

Now, with regard to your application -- anyone else

16
17

He was only

want to be heard on that application?

18

All right.

19

MR. WEINSTEIN:

We would join in that application.

20

think if one is to be excused, they should both be excused,

21

because you don't know what the dialogue was going the other

22

way.

23

MR. KROUSE:

We would oppose the application.

I

It

24

sounds as though maybe there was a snippet of a conversation.

25

It wasn't extensive deliberations between the two jurors.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A116

I

A-019

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 7 of 10
J3S8ACO1

1851

1

think it's sufficient to bring the jury in, remind them that

2

they are only supposed to deliberate when all 12 are present.

3

Deliberations had just begun yesterday.

4

application.
THE COURT:

5

So we oppose that

The application is denied.

And I want to

6

state for the record, one of the things that defense counsel

7

did not ask for, no one asked for, but I want to put on the

8

record why I am not doing it.

9

jurors and questioning them about what they said to one

10

No, I am not calling in the

another.
For the record, deliberations in this case began

11
12

yesterday and I don't have an exact time, but it was sometime

13

after 3:30 and before 4:00.

14

before 10 to 4.

15

wanted to stay beyond 5, to let me know.

16

assumes they left at 5:00.

17

begun.

18

That's the best I can do.

Maybe

And the jury was instructed that if they
They didn't so one

So the deliberations had just

That's number one.
Number two, to inquire of the jurors -- which again,

19

no one has asked me to do -- during the deliberation process is

20

a step I would be most reluctant to take, because it could be

21

misinterpreted by the jurors, it could lead to disclosure of

22

information which is not proper for any of us to know.

23

the same reason why we tell jurors that if they are split, not

24

to tell anyone what their vote is.

25

It's

So I am going to call in the jury and give them the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A117

A-020

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 8 of 10
J3S8ACO1

1

1852

instruction.

2

Please stand for the jury.

3

Thank you, Ms. Miron.

4

MS. MIRON:

5

(Jury present)

6

THE COURT:

7

THE JURY:

8

THE COURT:

Thank you, your Honor.

Good morning, ladies and gentlemen.
Good morning.
You will recall that yesterday, in my

9

final instructions to you, I instructed you as a jury that you

10

may not begin deliberations and may not discuss the case unless

11

all 12 of you are present.

12

light on or notify us when everyone is present so we know when

13

everyone is here.

14

deliberations may not occur without all of you being present.

And I instructed that you turn the

But the important point is that

15

Yes, ma'am.

16

JUROR:

We were all present at 10:00.

And I don't

17

think any one of us, because there were so many directions, we

18

didn't hear about turning the light on.

19

THE COURT:

20

JUROR:

21

That's quite all right.

We waited and we did not discuss anything

before then.
THE COURT:

22

That's good.

But now let me give you an

23

additional piece of information, and the reason why you are

24

here.

25

So information came to my attention that yesterday, as
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A118

A-021

Case 1:18-cr-00080-PKC Document 166 Filed 04/10/19 Page 9 of 10
J3S8ACO1

1853

1

the jurors exited the courthouse, two jurors were observed and

2

overheard discussing the case.

3

a violation of the Court's instructions.

4

sure that you understood that.

5

endeavors to strike up a conversation, no matter how trivial

6

about the case, when the 12 of you are not all present, you

7

should politely but firmly ask that juror to stop.

8
9
10

That's the end of it.

That is improper conduct.

It's

And I wanted to make

And if you have a juror who

You are not to discuss this

incident at all, but I wanted to make sure that you understood
what the rules are so that there is not a repetition.

11

You may return to the jury room to deliberate.

12

JUROR:

Your Honor, we are running out of space on the

13

whiteboard, and I am wondering if we might be able to get an

14

easel with a large pad of paper that we could use.

15

THE COURT:

16

I am sure we can.

17

Thank you.

We will see what we can do in that regard.

Just give us a little bit to work on it.

18

(Jury resumes deliberations; time noted:

19

THE COURT:

We are in recess.

10:45 a.m.)

And my deputy will give

20

the deputy marshal the easel and the pad.

21

(Recess pending verdict)

22

(Jury not present)

23

THE COURT:

We will find one.

I am advised by my deputy that the CSO was

24

handed a copy of the jury instructions, and said to her that

25

they wanted five more copies.

We have more copies printed up,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300
A119

A-022

